U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 29, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Cleophus Reed v. United States of America,
S.Ct. No. 20-7355

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 1,
2021, and placed on the docket on March 8, 2021. The government’s response is due on April 7,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 7, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7355
REED, CLEOPHUS
USA

CLEOPHUS REED, JR.
PRISONER NO. 21613-041
FCI PERKIN
PO BOX 5000
PEKIN, IL 61555

